                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     EPA Needs to Improve
                     Contract Management
                     Assessment Program
                     Implementation to Mitigate
                     Contracting Vulnerabilities
                     Report No. 14-P-0347               September 2, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Melinda Burks
                                                     Anthony Grear
                                                     Janet Kasper
                                                     Michael Petscavage




Abbreviations

CMAP           Contract Management Assessment Program
EPA            U.S. Environmental Protection Agency
GAO            Government Accountability Office
ICP            Internal Control Plan
OAM            Office of Acquisition Management
OARM           Office of Administration and Resources Management
OIG            Office of Inspector General
OMB            U.S. Office of Management and Budget


 Are you aware of fraud, waste or abuse in an           EPA Office of Inspector General
 EPA program?                                           1200 Pennsylvania Avenue, NW (2410T)
                                                        Washington, DC 20460
 EPA Inspector General Hotline                          (202) 566-2391
 1200 Pennsylvania Avenue, NW (2431T)                   www.epa.gov/oig
 Washington, DC 20460
 (888) 546-8740
 (202) 566-2599 (fax)
 OIG_Hotline@epa.gov                                    Subscribe to our Email Updates
                                                        Follow us on Twitter @EPAoig
 More information at www.epa.gov/oig/hotline.html.      Send us your Project Suggestions
                        U.S. Environmental Protection Agency                                               14-P-0347
                                                                                                    September 2, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review             EPA Needs to Improve Contract Management
The U.S. Environmental             Assessment Program Implementation to
Protection Agency (EPA) Office     Mitigate Contracting Vulnerabilities
of Inspector General (OIG)
conducted an audit evaluating       What We Found
the Office of Acquisition
Management’s (OAM’s)               CMAP is an integral part of OAM’s implementation of        CMAP will not be fully
Contract Management                OMB Revised Circular A-123 requirements. Multiple          and optimally
Assessment Program (CMAP).         factors hinder CMAP implementation, such as                implemented until the
CMAP is an integral part of        ambiguous guidance, the EPA’s organizational               agency makes needed
                                                                                              changes to improve
OAM’s implementation of the        structure, and lack of resources. The contracting
                                                                                              implementation.
U.S. Office of Management and      organizations within the EPA are implementing CMAP
Budget (OMB) Revised               to varying degrees. Required submissions were not always submitted timely, and
Circular A-123, Management’s       some annual reports did not contain all of the required elements. Additionally, the
Responsibility for Internal        CMAP policy does not incorporate a process to address noncompliance. As a
Control. The objectives of our     result, it is questionable whether the CMAP program can be fully and optimally
audit were to answer the           implemented until the agency makes needed changes.
following questions:
                                   The EPA follow-up actions in response to peer review findings appear to be
1. Are contracting offices         sufficient to ensure that weaknesses and vulnerabilities are corrected. However,
   implementing the CMAP?          one plan did not provide dates for the completion of planned corrective actions
2. Are the assessments             and OAM does not formally agree to or approve the corrective action plans.
   sufficient to identify          Additionally, quarterly update reports are not always submitted timely. OMB
   weaknesses in internal          Revised Circular A-123 states that agency managers are responsible for taking
   controls or systemic            timely and effective action to correct identified deficiencies. CMAP policy lacks
   vulnerabilities?                specificity, which creates confusion and hinders follow-up action implementation.
3. Are follow-up actions           As a result, corrective actions may take longer than necessary.
   sufficient to ensure that
   weaknesses and                   Recommendations and Planned Agency Corrective Actions
   vulnerabilities are
   corrected?                      We recommend that the Assistant Administrator for Administration and
                                   Resources Management revise the CMAP policy to correct ambiguity and
This report addresses the          strengthen accountability, implement organizational changes to provide OAM
following EPA goal or              with greater authority and oversight over regional contracting organizations, and
cross-agency strategy:             evaluate whether the resources allocated to the CMAP are sufficient to ensure
                                   adequate internal controls and effective CMAP implementation. The agency
  Embracing EPA as a high-        agreed to take corrective action for all but one of the recommendations. It
   performing organization.        disagreed with the recommendation to implement organizational changes.

                                    Noteworthy Achievements
Send all inquiries to our public
affairs office at (202) 566-2391   We found that the assessments contracting organizations are required to perform
or visit www.epa.gov/oig.          under the CMAP program are designed to identify weaknesses in internal
                                   controls or systemic vulnerabilities. The CMAP components collectively address
The full report is at:             all five Government Accountability Office standards for internal control. If CMAP
www.epa.gov/oig/reports/2014/      is implemented according to its program design, the EPA’s internal controls for
20140902-14-P-0347.pdf
                                   contracts management should improve over time.
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                    THE INSPECTOR GENERAL




                                           September 2, 2014

MEMORANDUM

SUBJECT:       EPA Needs to Improve Contract Management Assessment Program Implementation to
               Mitigate Contracting Vulnerabilities
               Report No. 14-P-0347

FROM:          Arthur A. Elkins Jr.

TO:            Nanci Gelb, Acting Assistant Administrator
               Office of Administration and Resources Management

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

The office responsible for implementing the recommendations is the Office of Acquisition Management,
within the Office of Administration and Resources Management.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 60 calendar days. You should include planned corrective actions and completion dates for all
unresolved recommendations. Your response will be posted on the OIG’s public website, along with our
memorandum commenting on your response. Your response should be provided as an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. The final response should not contain data that you do not want to be released to the public;
if your response contains such data, you should identify the data for redaction or removal along with
corresponding justification.

We will post this report to our website at http://www.epa.gov/oig.
EPA Needs to Improve Contract Management Assessment                                                                        14-P-0347
Program Implementation to Mitigate Contracting Vulnerabilities




                                   Table of Contents

 Chapters
   1     Introduction ......................................................................................................     1

                 Purpose .....................................................................................................   1
                 Background................................................................................................      1
                 Responsible Offices ...................................................................................         2
                 Noteworthy Achievements .........................................................................               2
                 Scope and Methodology ............................................................................              3

   2     CMAP Is Implemented Inconsistently Among EPA’s Contracting
         Organizations....................................................................................................       5

                 CMAP Contains Specific Requirements .....................................................                        5
                 Contracting Organizations Implement CMAP to Varying Degrees ..............                                       6
                 Multiple Factors Impact CMAP Implementation ..........................................                           8
                 Changes Needed to Improve CMAP Implementation .................................                                 11
                 Recommendations .....................................................................................           12
                 Agency Response and OIG Evaluation ......................................................                       12

   3     Follow-Up Action Implementation Could Be Improved ..................................                                    14

                 Follow-Up Required to Correct Deficiencies ...............................................                      14
                 Improvements Needed for Follow-Up Action Implementation .....................                                   14
                 CMAP Policy Lacks Specificity ...................................................................               15
                 Deficiencies May Not Be Corrected Timely ................................................                       16
                 Recommendations .....................................................................................           16
                 Agency Response and OIG Evaluation ......................................................                       16

   Status of Recommendations and Potential Monetary Benefits .............................                                       17



 Appendices
   A     Agency Response to Draft Report...................................................................                      18

   B     Distribution .......................................................................................................    21
                                  Chapter 1
                                   Introduction
Purpose
            The U.S. Environmental Protection Agency’s (EPA) Office of Inspector General
            (OIG) identified contracts management as an internal control weakness in its
            April 17, 2013, memo "Proposed Fiscal Year 2013 Management Challenges and
            Internal Control Weaknesses." The EPA disagreed and stated that the Office of
            Acquisition Management (OAM) had implemented new internal control systems,
            including OAM’s Contract Management Assessment Program (CMAP). We
            conducted an audit evaluating CMAP. The objectives of our audit were to answer
            the following questions:

               1. Are contracting offices implementing the CMAP?
               2. Are the assessments sufficient to identify weaknesses in internal controls
                  or systemic vulnerabilities?
               3. Are follow-up actions sufficient to ensure that weaknesses and
                  vulnerabilities are corrected?

Background
            The U.S. Office of Management and Budget (OMB) Revised Circular A-123,
            Management’s Responsibility for Internal Control, defines management’s
            responsibility for internal controls in federal agencies. It provides guidance to
            federal managers on improving the accountability and effectiveness of federal
            programs and operations by establishing, assessing, correcting and reporting on
            internal controls. It also establishes policy, stating that management is responsible
            for establishing and maintaining internal control to achieve the objectives of
            effective and efficient operations, reliable financial reporting, and compliance
            with applicable laws and regulations.

            The EPA initiated the CMAP in February 2012. OAM chartered the CMAP under
            the direction of the Senior Procurement Executive. OAM designed CMAP to
            ensure that contracting organizations operate in an effective and efficient manner
            and conform to the requirements of the Federal Managers’ Financial Integrity Act
            of 1982 and OMB Circular A-123.

            The CMAP is a system of controls designed to measure operational awareness
            and to determine how well the EPA’s contracting organizations support their
            respective mission requirements while meeting their other responsibilities. The
            CMAP identifies noteworthy practices as well as systemic vulnerabilities and



14-P-0347                                                                                       1
            obstacles to successful mission accomplishment through a holistic approach.
            CMAP contains four primary components:

                   Internal Control Plans (ICP).
                   Self-Assessments.
                   Annual Reports.
                   CMAP Peer Reviews.

Responsible Offices
            The office responsible for implementing this audit report’s recommendations is
            OAM, within the Office of Administration and Resources Management. The
            responsibility for CMAP implementation resides within OAM’s Policy, Training
            and Oversight Division, Contract Management Assessment Team. The Contract
            Management Assessment Team manager has the authority and responsibility for
            overseeing the successful implementation of the program. The contracting
            organizations responsible for implementing CMAP throughout the EPA are:

                   Cincinnati Procurement Operations Division.
                   Research Triangle Park Procurement Operations Division.
                   Headquarters Procurement Operations Division.
                   Superfund/RCRA Procurement Operations Division.
                   Nine regional contracting organizations for Regions 1 through 9 (Region 7
                    performs the contracting function for Region 10).

Noteworthy Achievements
            We found that the assessments contracting organizations are required to perform
            under the CMAP program are designed to identify weaknesses in internal controls
            or systemic vulnerabilities. The CMAP program design meets the U.S.
            Government Accountability Office (GAO) standards for internal control in
            government, required by the Federal Managers’ Financial Integrity Act.
            Specifically, the CMAP components collectively address all five GAO standards
            for internal control:

                  Control Environment.
                  Risk Assessment.
                  Control Activities.
                  Information and Communications.
                  Monitoring.

            CMAP, initiated in 2012, is in the early stages of implementation. The peer
            review component of the program is based on a 3 to 5 year cycle. Thus, it is too
            early to determine whether internal control improvements have been achieved.
            However, other than needing some clarifications and revisions of the program


14-P-0347                                                                                      2
            guidance to correct ambiguity and strengthen accountability, if CMAP is
            implemented according to its program design, the EPA’s internal controls for
            contracts management should improve over time. Overall, this improvement in
            internal controls should result in increased compliance with applicable contracting
            regulations, policies and guidance in the future.

Scope and Methodology
            We conducted this performance audit from November 2013 through May 2014, in
            accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the audit to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and
            conclusions based on our audit objectives. We believe that the evidence obtained
            provides a reasonable basis for our findings and conclusions based on our audit
            objectives.

            As noted above, CMAP is in its early stages of implementation. We focused our
            review and analysis on CMAP submissions for the first year of implementation
            (fiscal year 2012), since submissions for the second year of implementation were
            not yet due at the time we started the audit. For fiscal year 2013, we received
            updates from OAM on the status of the submissions as of certain dates. We
            reviewed relevant agency guidance to obtain an understanding of internal controls
            related to CMAP. We also interviewed the appropriate staff in OAM and in the
            different contracting organizations to gain an understanding of CMAP and to
            discuss any findings.

            To answer objective 1, we obtained, reviewed and analyzed:

               (1) ICPs/ Quality Assessment Plans.
               (2) Self-assessments.
               (3) Annual reports for each contracting organization.

            We determined whether they were submitted timely and met the CMAP
            requirements. We also reviewed the peer reviews that were completed at the time
            of our audit.

            To answer objective 2, we compared and analyzed GAO’s five internal control
            standards to the CMAP, and determined whether the CMAP complies with and
            meets all requirements. For two randomly selected contracting organizations, we
            determined:

               (1) Whether the ICP, self-assessment, annual report and peer review complied
                   with and met all requirements of GAO’s internal control standards.
               (2) How useful these documents are in helping to identify weaknesses in
                   internal controls or systemic vulnerabilities.




14-P-0347                                                                                     3
            To answer objective 3, we obtained, reviewed and analyzed the corrective action
            plans submitted to date to determine whether they were submitted timely and
            would be sufficient to ensure the weaknesses and vulnerabilities are corrected. We
            also determined the current status of findings and whether the proposed corrective
            actions have been or are being implemented. We determined whether quarterly
            updates on all corrective action plans have been completed until they are closed.
            Finally, we determined whether a listing of best practices and areas of concern has
            been compiled and displayed on the Policy, Training and Oversight Division
            website, and whether best practices have been reviewed for incorporation into
            existing policies, regulations and systems.

            There are no prior audit reports on the CMAP program.




14-P-0347                                                                                    4
                                   Chapter 2
             CMAP Is Implemented Inconsistently
            Among EPA’s Contracting Organizations
             The various contracting organizations within EPA are implementing CMAP to
             varying degrees. For those that are implementing it, the documentation was not
             always submitted timely. Further, five of the annual reports did not contain all of
             the required elements. CMAP is an integral part of OAM’s implementation of
             OMB Circular A-123 requirements. Multiple factors hinder CMAP
             implementation, such as ambiguous requirements, the EPA’s organizational
             structure, and lack of resources. Additionally, the CMAP policy does not
             incorporate a process to address noncompliance. As a result, it is questionable
             whether the CMAP program can be fully and optimally implemented until the
             agency makes needed changes to improve program implementation.

CMAP Contains Specific Requirements
             CMAP requires the following components:

                   ICP. The overall purpose of the ICP, formerly known as the Quality
                    Assessment Plan, is to be able to identify vulnerabilities, correct them, and
                    verify and validate that the corrective action eliminated the identified
                    vulnerability. The ICP identifies the methodology an organization uses to
                    measure and assess its compliance with Federal Acquisition Regulation,
                    agency policies and procedures, workforce development, etc., in order to
                    identify systemic vulnerabilities and weaknesses. CMAP states that ICPs
                    are dynamic documents that will periodically require revision and may be
                    updated as needed.

                   Self-Assessments. The self-assessment review is an organization’s
                    objective self-evaluation of its pre-award and post-award activities
                    through implementation of its ICP, as well as an evaluation of
                    organizational systems such as staffing, internal policies and procedures,
                    and customer outreach. Each organization shall perform assessment
                    review activities utilizing the peer review/self-assessment checklist
                    criteria. The self-assessment review is used to test the effectiveness of an
                    organization’s internal control measures for transactional activities. The
                    Part III self-assessment survey is required to be submitted annually, at the
                    same time as the annual report.

                   Annual Reports. After conducting the self-assessment, each organization
                    shall prepare and submit one consolidated report to the CMAP team lead
                    in the first quarter of each fiscal year, no later than the 3rd Friday in
                    November, that will include the following sections:


14-P-0347                                                                                          5
                       (1) Organizational self-assessment survey.
                       (2) Organizational retrospective report.
                       (3) Prospective organizational internal review plan.

                   The data from these annual reports is used to identify cross-organizational
                   systemic issues, corrective actions taken, and best practices in support of
                   OAM’s knowledge management initiatives; inform the scope of future
                   periodic peer reviews; and conduct peer reviews. CMAP policy states that
                   organizations may choose to use any format for reporting purposes,
                   although an optional template is provided.

                   The retrospective report shall contain, at a minimum, the following
                   information:

                          Introduction/background.
                          Identification of assessment review personnel.
                          Scope of review activities.
                          Trend analysis.
                          Assessment of trade-offs.
                          Identification of management initiatives.
                          Root-cause analysis.
                          Corrective action plans.

                   Prospective plans, at a minimum, shall address the following:

                          Background information.
                          Identification of internal review personnel.
                          Status of prior/current internal review activities.
                          Internal review activities for the upcoming fiscal year.

                  CMAP Peer Reviews. The CMAP peer review is OAM’s periodic
                   verification and validation review of an organization’s adherence to
                   acquisition policy and procedures, led by qualified persons who are
                   independent of the organization and who do not have any real or apparent
                   conflicts of interest.

Contracting Organizations Implement CMAP to Varying Degrees
            ICPs not Updated

            Nine of 13 contracting organizations have not updated their ICPs in more than 3
            years. The first cycle of OAM’s peer reviews, although not complete, resulted in
            recommendations that ICPs be updated. Table 1 shows a summary of the ICP
            updates as of December 1, 2013.



14-P-0347                                                                                      6
            Table 1: Status of ICP updates
                           Last ICP update                          No. of contracting organizations
                         Within the last 3 years                                    4
                          More than 3 years                                         3
                          More than 4 years                                         5
                          More than 5 years                                         1
            Source: OIG analysis of the most recent ICPs, provided by the EPA.

            Fiscal Year 2012 Submissions Either not Submitted or not Timely

            Of the 13 contracting organizations, 11 submitted annual reports for fiscal year
            2012 and two did not. Further, for the fiscal year 2012 annual reports submitted,
            the submissions were either not dated or received after the due date of
            November 17, 2012 (table 2).

            Table 2: Timeliness of submitted annual reports
                 No. of annual reports                    Date                   Submitted by due date
                           8                            Not dated                  Cannot determine
                           1                        November 23, 2012                     No
                           1                        November 30, 2012                     No
                           1                         December 2012                        No
            Source: Annual reports for fiscal year 2012, provided by the EPA.

            The Part III self-assessment survey is required to be submitted annually at the
            same time as the annual report. For fiscal year 2012, of the 11 contracting
            organizations that submitted an annual report, six submitted the Part III self-
            assessment and five did not. Of the five that did not submit the Part III self-
            assessment, some submitted other self-assessment information. For example, two
            organizations submitted Part I of the self-assessment, but not Part III as required.
            For the six Part III self-assessments that were submitted, the submissions were
            either not dated or not submitted by the due date, as shown in table 3.

            Table 3: Timeliness of submitted self-assessments
               No. of self-assessments                    Date                   Submitted by due date
                            3                           Not dated                  Cannot determine
                            1                        November 2012                 Cannot determine
                            1                       November 23, 2012                     No
                            1                        December 2012                        No
            Source: Self-assessments for fiscal year 2012 provided by the EPA.

            Fiscal Year 2012 Annual Reports not Complete

            Of the 11 annual reports submitted for fiscal year 2012, five were not complete.
            Of those that were not complete, one contracting organization did not complete its
            assessment activity, and four reports did not cover all of the required annual




14-P-0347                                                                                                7
            report elements. For example, one annual report did not include the following
            elements:

                   Assessment of trade-offs.
                   Identification of management initiatives.
                   Root-cause analysis.
                   Corrective action plans.

            These are all required annual report elements, according to the CMAP policy.
            Table 4 shows a summary of the completeness of the annual reports.

            Table 4: Completeness of annual reports
                       Annual report complete?                        No. of contracting organizations
               Complete and included all required elements                            6
                   Assessment activity not complete                                   1
                  Did not include all required elements                               4
            Source: OIG analysis of submitted annual reports for fiscal year 2012, provided by the EPA.

            Fiscal Year 2013 Submissions not Timely

            Some of the fiscal year 2013 submissions (both the self-assessments and annual
            reports, due in November 2013) were not timely. As of mid-December 2013, only
            five of 13 contracting organizations had submitted the required data. It was not
            until February 2014 that OAM received all of the required submissions. Because
            some organizations were not complying with CMAP requirements, the head of the
            contracting activity issued a memorandum in January 2014 informing the
            contracting organizations of their responsibilities regarding internal controls, per
            OMB Circular A-123.

            Better Sharing of Trends Needed From Headquarters

            While the EPA is implementing the peer review component, there can be
            improvement in sharing of the best practices and trends from the submissions and
            peer reviews. As of January 2014, there was a listing of trends on one of OAM’s
            website pages. However, the information was based on fiscal year 2012 data and
            had not been updated to include more recent data. OAM planned to create a
            knowledge management website page, but it has not yet been established.

Multiple Factors Impact CMAP Implementation
            CMAP Does Not Specify Timeframes for Updating ICPs

            The CMAP does not require the ICPs to be reevaluated on a regular basis and
            within a specific timeframe. The CMAP currently states that ICPs will be updated
            as needed. The peer reviews have identified the need for updating ICPs, indicating
            that ICPs may not be updated often enough.


14-P-0347                                                                                                 8
            Ambiguous Requirements Cause Confusion

            The CMAP policy in place at the time of the first two submissions of the self-
            assessments (fiscal years 2012 and 2013) was not clear as far as what was
            required to be submitted for the self-assessment and when it was due. In some
            cases, the policy was not specific and allowed for differing formats, which caused
            inconsistency and confusion. A staff person from one contracting organization
            indicated it was confusing because there was a lack of understanding about what
            needed to be submitted. This resulted in inconsistencies as to what was submitted
            among the different contracting organizations. For example, as discussed above,
            some organizations did not submit the required Part III self-assessment, but
            instead submitted other parts of the self-assessment. The staff person noted the
            need for more training and communication on the process.

            The following are examples that we noted in the policy that illustrate this
            ambiguity:

                  The CMAP policy stated that each organization shall perform assessment
                   review activities utilizing the peer review/self-assessment checklist
                   criteria. However, the policy also states that checklist questions serve
                   merely as a reference guide for reviews conducted in each respective
                   criterion and do not require submission of documented responses of each
                   individual question for reporting purposes. These two statements seem to
                   somewhat contradict each other.

                  The CMAP policy stated that flexibility is permitted in the timing of the
                   review. It also states that the checklist questions serve merely as a
                   reference guide for reviews conducted in each respective criterion. Again,
                   this seems contrary to the “shall” requirement statement.

                  The self-assessment checklist itself states that contract managers must
                   annually submit Part III. However, Parts I and II can be completed in part
                   or in whole annually, as long as each system criterion is assessed within a
                   3- year cycle.

            The CMAP team lead clarified the self-assessment reporting requirements during
            our audit, and stated that the Part III self-assessment survey is required to be
            submitted annually. However, to our knowledge based on our audit, this
            clarification had not been communicated to the contracting organizations.

            While the latest CMAP policy, effective December 11, 2013, is somewhat clearer
            on the requirements, OAM stated that it still wants to give the contracting
            organizations flexibility. For example, OAM stated that the checklist provided is
            optional, and that the contracting organizations could submit information in a
            different format. However, this is contrary to the CMAP policy, which states that
            the checklist “shall’ be used. While OAM is providing flexibility, staff stated that


14-P-0347                                                                                        9
            the requirements were sometimes not as clear as they could be, and that this can
            cause inefficiencies and confusion because the contracting organizations may not
            know what is expected. One regional contracting chief noted that CMAP is
            implemented with a lot of collaboration, and indicated that at some point,
            direction is needed. Lack of direction causes different interpretations of the
            requirements among the contracting organizations.

            Organizational Structure Hindering CMAP Implementation

            The EPA's current organizational structure is hindering implementation of
            CMAP, making it questionable whether the program can be fully and optimally
            implemented. The regional contracting staff do not report directly to OAM, but
            instead are regional employees and report to regional management. As a result,
            the head of contracting activity cannot efficiently and effectively direct the
            regional contracting organizations to comply with the CMAP requirements.
            Instead, OAM is implementing the program by trying to get regional
            administrators, program staff and regional contracting chiefs to buy into the
            program by getting them to understand the importance of internal controls.

            Under the current structure, OAM does not have sufficient influence over the
            regional contracting organizations, and regional management and program offices
            are in a position where they can potentially place more influence over the regional
            contracting staff. We noted the following examples based on interviews with
            regional contracting officials and staff.

                  According to a regional contracting staff person, a regional administrator
                   stated that environmental laws are much more important than Federal
                   Acquisition Regulation requirements.

                  According to a regional contracting chief, they informed the regional
                   administrator that they believed they were short of staff, but the regional
                   administrator disagreed. Since the regional administrator signs the self-
                   assessment and annual report submitted to OAM, this casts doubt on the
                   accuracy of that region’s CMAP documentation.

            In discussions with OAM management, they acknowledge that there remains a
            lack of clear orientation by program and regional staff with respect to the
            contracting function and responsibilities. The EPA is currently considering
            various reorganizations that would alter the structure and possibly provide the
            head of contracting activity with more authority. No final decision has been made
            regarding reorganization. Providing the head of contracting activity with more
            authority would help efficiently and effectively implement the CMAP.




14-P-0347                                                                                        10
            Lack of Resources Impacts CMAP Implementation

            The CMAP program is essentially being implemented and run largely by one
            person out of headquarters, the CMAP team lead. The CMAP team lead and
            OAM management acknowledged that lack of resources is a challenge. Resources
            are needed to analyze trends, review corrective action plans, update the website,
            etc. Resources are also needed to perform the peer reviews. However, due to the
            lack of resources, the peer reviews are currently staffed with qualified personnel
            who volunteer from other contracting offices.

            CMAP Policy Does not Incorporate Process to Address
            Noncompliance

            The CMAP policy does not incorporate a process that ensures that appropriate
            action is taken when contracting organizations do not comply with CMAP
            requirements. The head of contracting activity issued a memorandum in January
            2014 to explain the importance of internal controls and to explain possible
            consequences for noncompliance. While this memorandum laid out possible
            consequences for CMAP noncompliance, this information is not included in the
            CMAP policy. While the most severe possible outcome, pulling of warrant
            authority, did not occur in the instances where regional contracting organizations
            did not comply with CMAP, OAM did have to discuss the noncompliance with
            regional administrators before the submissions for two of the 13 organizations
            were finally received.

Changes Needed to Improve CMAP Implementation
            It is questionable whether the CMAP program can be fully and optimally
            implemented until the agency makes needed changes to improve program
            implementation. Contract deficiencies noted by both the OIG and in the internal
            self-assessments and peer reviews may continue in the future. Lack of enough
            permanent staff could impact the sharing of findings and lessons learned, slow the
            number of peer reviews that could be performed each year, and impact corrective
            action follow-up activities. Additionally, lack of submissions causes the
            performance measurement data to be incomplete and potentially inaccurate.




14-P-0347                                                                                    11
Recommendations
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               1. Revise the CMAP policy to:

                   (a) Be more prescriptive of what exact documents are required to be
                       submitted.
                   (b) Specifically address when ICPs will be reviewed for possible revision
                       (e.g., during annual reporting and peer reviews).
                   (c) Incorporate a process that ensures that appropriate action is taken when
                       contracting organizations do not comply with CMAP.

               2. Ensure the organizational changes currently being considered for the
                  contracting function at the EPA provide OAM with greater authority and
                  oversight over regional contracting organizations are implemented, to
                  allow for more effective CMAP implementation.

               3. Evaluate whether the resources allocated to the CMAP are sufficient to
                  ensure adequate internal controls and effective CMAP implementation.

Agency Response and OIG Evaluation
            OARM agreed to take corrective action in response to recommendations 1(a),
            1(b), 1(c), and 3, and provided a completion date of October 15, 2014, for these
            recommendations. The proposed corrective actions and planned completion dates
            meet the intent of the recommendations. These recommendations will remain
            open pending completion of the proposed corrective actions.

            OARM disagreed with recommendation 2 to implement organizational changes
            for the contracting function. OARM stated that the senior procurement executive
            already has the authority to modify or rescind contracting officer warrants if it is
            determined that the operational procurement activity does not have effective
            internal controls in place to identify, correct, and ultimately eliminate systematic
            vulnerabilities. As a result, OARM stated there is no need for greater authority
            and oversight over regional contracting organizations as described in the
            recommendation. The complete agency response to the draft audit report is
            attached at Appendix A.

            While the OIG continues to believe that making organizational changes that
            provide OAM with greater authority and oversight would increase internal
            controls over the EPA contracting function, we acknowledge that the senior
            procurement executive does have the authority to modify and rescind contracting
            officer warrants and that this provides some level of internal control. However,
            there are no specific policies and procedures that outline exactly when and how


14-P-0347                                                                                      12
            such authority would be used to improve or enforce internal controls, and thus, we
            are unsure how often and under what circumstances warrants would be modified
            or rescinded due to internal control issues. The OIG believes this is important
            because, under the current organizational structure, regional contracting officers
            report to regional management instead of OAM, and therefore, regional
            management and program offices are in a position where they can potentially
            influence contracting officer judgments and impact decisions of the regional
            contracting chiefs. Therefore, the OIG believes that alternative corrective action is
            necessary and OAM should establish written policies and procedures that
            specifically define the circumstances under which warrants would be modified or
            rescinded due to internal control issues. The audit resolution process will be used
            to resolve this recommendation.




14-P-0347                                                                                     13
                                  Chapter 3
 Follow-Up Action Implementation Could Be Improved
            The EPA follow-up actions in response to peer review findings, when
            implemented, appear to be sufficient to ensure that weaknesses and vulnerabilities
            are corrected. Three of four corrective action plans were submitted timely.
            However, one of the three timely plans did not provide dates for the completion of
            planned corrective actions and OAM does not formally agree to or approve the
            corrective action plans. Additionally, quarterly update reports are not always
            being submitted timely. OMB Circular A-123 states that agency managers are
            responsible for taking timely and effective action to correct identified
            deficiencies. CMAP policy lacks specificity, which creates confusion and hinders
            follow-up action implementation. As a result, corrective actions may take longer
            than necessary and deficiencies may not be corrected timely.

Follow-Up Required to Correct Deficiencies
            OMB Circular A-123 states that agency managers are responsible for taking
            timely and effective action to correct identified deficiencies. Correcting
            deficiencies is an integral part of management accountability and must be
            considered a priority by the agency. OMB Circular A-123 also states that the
            extent to which the agency tracks corrective actions should be commensurate with
            the severity of the deficiency. Management should track progress to ensure timely
            and effective results. For reportable conditions that are not included in the Federal
            Managers’ Financial Integrity Act report, corrective action plans should be
            developed and tracked internally at the appropriate level.

            The CMAP peer reviews OAM performs may identify weaknesses and
            vulnerabilities in a contracting organization’s internal controls. The CMAP policy
            states that any deficiencies require a response in the form of a written corrective
            action plan within 90 days upon receipt of the final peer review report. Responses
            are followed by quarterly updates on all corrective action plans until closed.

Improvements Needed for Follow-Up Action Implementation
            Three of four corrective action plans required in response to four fiscal year 2012
            peer reviews were submitted timely and did appear to address the deficiencies.
            However, one plan did not provide dates for the completion of planned corrective
            actions. OAM does not formally agree to or approve the plans. In addition,
            quarterly update reports are not always being submitted timely.

            Corrective Action Plans. Of the four peer reviews completed for fiscal year
            2012, three contracting organizations submitted corrective action plans within 90
            days of the peer review final report date, as required. The fourth contracting


14-P-0347                                                                                     14
            organization requested and received an extension to December 30, 2013.
            According to OAM, that contracting organization submitted its corrective action
            plan in February 2014.

            One corrective action plan did not contain planned completion dates for the
            proposed corrective actions. Corrective action plans should contain estimated
            completion dates to track progress.

            According to the CMAP team lead, although OAM does look at the corrective
            action plans, there is no formal approval process. The CMAP team lead indicated
            that OAM wants to let the contracting organizations come up with their own
            corrective actions. Subsequently, OAM will determine if corrective actions
            correct deficiencies based upon future peer review follow-ups.

            Quarterly Reports. Of the three contracting organizations that were required to
            submit quarterly reports, one did not submit a report and the other two did not
            submit reports consistent with regard to the submitted dates. There appears to be
            confusion on when quarterly updates are due. Table 5 shows a summary of the
            quarterly report status for the three contracting organizations.

            Table 5: Status of quarterly reports for three contracting organizations
               Date(s) quarterly report received           Comment
                            No report
                        November 30, 2013                  2 months into quarter
              July 10, 2013 and December 30, 2013          one submitted towards the beginning of the
                                                           quarter, and one submitted at the end of
                                                           the quarter
            Source: Quarterly update reports provided by the EPA.

CMAP Policy Lacks Specificity
            The CMAP does not require OAM to agree with contracting organizations’
            proposed corrective action plans. It does not provide for procedures to be
            followed if OAM and the contracting organization disagree with a proposed
            corrective action. Further, it does not specifically require that the corrective action
            plans include milestone completion dates.

            The CMAP policy does not stipulate a specific due date for the quarterly updates.
            It simply states that corrective action plans are to be followed by quarterly
            updates. As a result, contracting organizations do not have a specific due date for
            when to submit their quarterly update reports.




14-P-0347                                                                                           15
Deficiencies May Not Be Corrected Timely
            Lack of planned completion dates for proposed corrective actions, lack of a
            formal approval process for corrective action plans, and uncertainty regarding the
            quarterly update due dates are all factors that could lead to deficiencies not being
            corrected at all, or not being corrected timely. For example, lack of planned
            completion dates makes follow-up and monitoring more difficult. It is unclear
            how a situation would be handled by headquarters and by the peer-reviewed
            contracting organization when they do not agree on a proposed corrective action.
            Inconsistencies with the timing of quarterly update submittals also potentially
            impact timely correction of deficiencies.

Recommendations
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               4. Revise the CMAP policy to:

                   (a) Require corrective action plans include planned completion dates so
                       that progress can be tracked.
                   (b) Require OAM approval of corrective action plans, including a process
                       for resolution to address instances when OAM and contracting
                       organizations disagree.
                   (c) Clarify when the quarterly updates are due to be submitted.

Agency Response and OIG Evaluation
            OARM agreed to take corrective action in response to recommendations 4(a), 4(b)
            and 4(c), with an expected completion date of October 15, 2014, for all corrective
            actions. The agency’s proposed corrective actions and planned completion dates
            meet the intent of the recommendations. These recommendations will remain
            open pending completion of the proposed corrective actions. See Appendix A for
            the complete agency response to the draft audit report.




14-P-0347                                                                                     16
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                               POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed-To
    No.      No.                          Subject                         Status1        Action Official             Date      Amount      Amount

     1       12    Revise the CMAP policy to:                               O       Assistant Administrator for    10/15/14
                      (a) Be more prescriptive of what exact                           Administration and
                          documents are required to be submitted.                    Resources Management
                      (b) Specifically address when ICPs will be
                          reviewed for possible revision (e.g., during
                          annual reporting and peer reviews).
                      (c) Incorporate a process that ensures that
                          appropriate action is taken when contracting
                          organizations do not comply with CMAP.

     2       12    Ensure the organizational changes currently being        U       Assistant Administrator for
                   considered for the contracting function at the EPA                  Administration and
                   provide OAM with greater authority and oversight                  Resources Management
                   over regional contracting organizations are
                   implemented, to allow for more effective CMAP
                   implementation.

     3       12    Evaluate whether the resources allocated to the          O       Assistant Administrator for    10/15/14
                   CMAP are sufficient to ensure adequate internal                     Administration and
                   controls and effective CMAP implementation.                       Resources Management

     4       16    Revise the CMAP policy to:                               O       Assistant Administrator for    10/15/14
                      (a) Require corrective action plans include                      Administration and
                          planned completion dates so that progress                  Resources Management
                          can be tracked.
                      (b) Require OAM approval of corrective action
                          plans, including a process for resolution to
                          address instances when OAM and
                          contracting organizations disagree.
                      (c) Clarify when the quarterly updates are due to
                          be submitted.




1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




14-P-0347                                                                                                                                        17
                                                                                      Appendix A

                   Agency Response to Draft Report
                                           July 1, 2014

MEMORANDUM

SUBJECT:       Response to Office of Inspector General Draft Audit Report No. OA-FY14-0034
               “EPA Needs to Improve Contract Management Assessment Program
               Implementation to Mitigate Vulnerabilities,” dated May 22, 2014

FROM:          Craig E. Hooks, Assistant Administrator

TO:            Janet Kasper, Director
               Contract and Assistant Agreement Audits
               Office of the Inspector General

Thank you for the opportunity to comment on the subject draft report and for recognizing the
many noteworthy achievements accomplished under the Contract Management Assessment
Program to date. While Office of Administration and Resources Management agrees with all but
one of the recommendations contained in the subject draft report, OARM respectfully disagrees
with your assessment that the program has not been fully implemented.

As noted in your draft report, the CMAP is still in its nascent stages of implementation with the
first three year cycle ending September 2014. Any time an organization implements a new
program of this magnitude, program maturity issues are expected. Admittedly, there have been
challenges associated with standing up this new program. However, since program initiation, the
Office of Acquisition Management has collaborated with agency contracting organizations to
effectively self-identify vulnerabilities, develop corrective action plans to eliminate future
occurrences, and institute processes to verify and validate that the corrections taken eliminate
systemic vulnerabilities were identified. These accomplishments are the essence of an effective
internal controls program which to date has resulted in many noteworthy accomplishments. For
example, many OAM policies have either been updated, revised, or created to provide staff with
guidance and procedures to rectify the root causes attributable to systemic vulnerabilities
identified in both the annual self-assessment reports and the CMAP peer reviews.

In addition to the aforementioned activities, OAM has created a knowledge management website
to provide tool kits on identified problematic areas identified under the CMAP, and uses this site
to share aggregated systemic vulnerabilities, corrective actions, and identified best practices with
all agency contracting organizations. In addition, peer review volunteers share lessons learned
and best practices from other organizations that have been reviewed with their colleagues. Based
on the foregoing, the OAM CMAP program has yielded positive results, improved performance,
and eliminated systemic vulnerabilities. Furthermore, since OAM realizes the CMAP needs to
evolve, we are constantly employing continuous improvement initiatives to ensure that the
program remains viable, effective and productive.


14-P-0347                                                                                         18
AGENCY’s OVERALL POSITION

Recommendation 1: We recommend the Assistant Administrator for Administration and
Resources Management:

Revise the CMAP policy to:
   a. Be more prescriptive of what exact documents are required to be submitted.
OARM Response: OARM agrees with the recommendation that more prescriptive language is
needed on documentation requirements and due dates in the CMAP policy (Part 6) of the BSC
Performance Measurement and Management Program Guide at
http://oamintra.epa.gov/files/OAM/BSC%20Framework%20Guide%20-Revised%2012-11-
13r1.pdf, and will revise the policy accordingly no later than October 15, 2014.

   b. Specifically address when ICPs will be reviewed for possible revision (e.g.), during
      annual reporting and peer review.
OARM Response: OARM agrees with the recommendation that specific language should be
included in the CMAP policy to address review of Internal Control Plans. Accordingly, OAM
will revise the policy to require managers to review ICPs at least annually. If necessary, OARM
will revise ICPs to address vulnerabilities resulting from self-assessments, peer reviews, OIG
audits, Office of Management and Budget initiatives, etc., and submit revisions to the Policy,
Training, and Oversight Division Director for approval. OARM will accomplish this revision no
later than October 15, 2014.

   c. Incorporate a process that ensures that appropriate action is taken when
      contracting organizations do not comply with CMAP.
OARM Response: OARM agrees with the recommendation that the CMAP policy should be
revised to include the process for taking action when contracting organizations do not comply
with CMAP requirements. Specifically, the OAM Director already has the authority to amend
existing delegations of contracting authority and/or increase independent reviews of contract
transactions as deemed necessary. OARM will accomplish this revision no later than October 15,
2014.

Recommendation 2. Ensure the organizational changes currently being considered for the
contracting function at the EPA provide OAM with greater authority and oversight over
regional contracting organizations are implemented, to allow for more effective CMAP
implementation.

OARM Response: OARM disagrees with this recommendation. Per the Chapter 1-2 of the
OHR Delegations Manual at http://intranet.epa.gov/ohr/rmpolicy/ads/dm/index1.htm, the Senior
Procurement Executive already has the authority to modify or rescind contracting officer
warrants if it is determined that the operational procurement activity does not have effective
internal controls in place to identify, correct and ultimately eliminate systemic vulnerabilities.




14-P-0347                                                                                       19
As a result, there is no need for greater authority and oversight over regional contracting
organizations as described in the recommendation.

Recommendation 3. Evaluate whether the resources allocated to the CMAP are sufficient
to ensure adequate internal controls and effective CMAP implementation.

OARM Response: OARM agrees with this recommendation and will address this issue in the
pending eminent OAM re-organization. OARM anticipates submitting the pending re-
organization to the Office of Human Resources by October 15, 2014.

Recommendation 4: Revise the CMAP policy to:
   a. Require corrective action plans to include planned completion dates so that progress
      can be tracked.
OARM Response: OARM agrees with this recommendation and will revise its policy to require
planned completion dates for corrective action plans. OARM will accomplish this revision no
later than October 15, 2014.

      b. Require OAM approval of corrective action plans, including a process for resolution
         to address instances when OAM and contracting organizations disagree.
OARM Response: OARM agrees with this recommendation and will revise its policy to require
Policy, Training, and Oversight Division approval of corrective action plans, and also include a
process to address instances of disagreement between OAM and contracting organizations
regarding proposed corrective action plans. OARM will accomplish this revision no later than
October 15, 2014.

      c. Clarify when the quarterly updates are due to be submitted.
OARM Response: OARM agrees with this recommendation and will revise its policy to clarify
quarterly due dates for corrective action plans. OARM will accomplish this revision no later
than October 15, 2014.

If you have any questions regarding this response, please contact John Bashista, Director, Office
of Acquisition Management at 202-564-4310; or Lisa Maass, Audit Follow-up Coordinator, at
202-564-2498.

cc:      Nanci Gelb
         John Showman
         Steven Blankenship
         John Bashista
         Lisa Maass
         Brandon McDowell




14-P-0347                                                                                      20
                                                                              Appendix B

                                   Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator for Administration and Resources Management
Director, Office of Acquisition Management, Office of Administration and Resources
       Management
Director, Office of Policy and Resource Management, Office of Administration and
       Resources Management
Deputy Director, Office of Policy and Resource Management, Office of Administration and
       Resources Management
Director, Office of Regional Operations
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Acquisition Management, Office of Administration and
       Resources Management




14-P-0347                                                                                21
